                                                              UNITED STATES DEPARTMENT OF COMMERCE
                                                              Th e Inspector General
                                                              Washington, D.C. 20 230




 ovember 12, 2013

MEMORANDUM FOR:                Lawrence E. Strickling
                               Assistant Secretary for Com mun ication and Information, National
                               Telecommunications and Information Administration

                               /~.3 ~
FROM :                        Todd .I. Z inser

SUBJECT:                      Notification of audit related to FirstNet procurement issues


On October 25, 2013. the chairman of the board of directors of First Responder etwork
Authority (First et) requested OIG to conduct an independent review of certain ethics and
procurement issues concerning the operations of F irst et that the board ·s Special Review
Committee (SRC) had planned to review. The chairman indicated that as a result of his request,
the SRC has suspended its activities.

In response to the chairman's request, we are ini tiating an audit of Fi rstNet' s acquisition
activit ies. We intend to interview contracti ng and program officials, review justifications
supporting contracting decisions, and eva luate the oversight responsibilities required to monitor
contractor performance. We also intend to assess whether contracts were appropriately awarded
and administered in accordance with relevant acqui sition regulatio ns, and w hether acquired
services were delivered to meet proj ect needs. Additionally. we will exam ine the review process
undertaken by First 'et of ethics-related maners as they pertain to the board. and any associated
ethics determinations.

We appreciate TIA 's cooperation during our audit . For further information, please contact me
or A nn Ei lers, Principal Assistant Inspector General for Audit and Evaluation, at
(202) 482-2754.


cc: Samuel L. Ginn. FirstNet Chairman
